LOUISIANA
CENTER
CHlioREN7s

1100-B Milton St.
New Orleans, LA 10122

(504) 658-6860 office
(504) 658-6869 fax
lakidsrights.org

RIGHTS
Clerk of Court
Supreme Court of the United States
1 First Street NE
Washington, D.C. 20543
March 25, 2021
Re: State of Louisiana v. Aaron Hauser, No. 20-1315
Dear Clerk of Court,
I am counsel for respondent in this case, Mr. Aaron Hauser. On March 5, 2021, the State of

Louisiana filed its petition for a writ of certiorari. Because the State filed its petition more than
150 days after the Louisiana Supreme Court's order denying review, and because that court does
not permit applications for reconsideration of such orders, see Pet. App. 1, the State's petition is
untimely. Mr. Hauser, therefore, waives his right to respond unless the Court wishes to call for
one.
Please let me know should you require any additional information.
Sincerely,

J'l
C

/1(uarella
sel for Aaron Hauser

cc: Elizabeth Baker Murrill, Solicitor General, State of Louisiana

RECEIVED
MAR 3 0 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

